                                                                                  Office Of Inspector General
                                                                                  Office Of Audit Services
        DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                   Region II
                                                                                  Jacob K. Javlts Federal Building
                                                                                   26 Federal Plaza
                                              March 27, 2009
                                                                                   New York, NY 10278




Report Number: A-02-08-01003

Ms. Suzanne Gannon
Chief Financial Officer
HealthNow New York, Inc.
257 West Genesee Street
Buffalo, New York 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (DIG), final report entitled "Audit of HealthNow New York, Inc.' s, Medicare Part B
Final Administrative Cost Proposals for Fiscal Years 2005 Through 2007." We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.c. § 552, DIG reports generally are made
available to the public to the extent the information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Richard Schlitt, Audit Manager, at (212) 264-4817 or through e-mail at
Richard.Schlitt@oig.hhs.gov. Please refer to report number A-02-08-01003 in all
correspondence.

                                              Sincerely,



                                             ~!e~ tck£
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 - Ms. Suzanne Gannon


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
 

             OFFICE OF 
 

        INSPECTOR GENERAL 
 





  AUDIT OF HEALTHNOW NEW 
 

YORK, INC.’S, MEDICARE PART B
 

 FINAL ADMINISTRATIVE COST 
 

 PROPOSALS FOR FISCAL YEARS 
 

     2005 THROUGH 2007 
 





                     Daniel R. Levinson
 

                      Inspector General 
 


                        March 2009
 

                       A-02-08-01003
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
Department of Health and Human Services
 

             OFFICE OF 
 

        INSPECTOR GENERAL 
 





  AUDIT OF HEALTHNOW NEW 
 

YORK, INC.’S, MEDICARE PART B
 

 FINAL ADMINISTRATIVE COST 
 

 PROPOSALS FOR FISCAL YEARS 
 

     2005 THROUGH 2007 
 





                     Daniel R. Levinson
 

                      Inspector General 
 


                        March 2009
 

                       A-02-08-01003
 

                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 
 


BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part B Carriers that process and pay Medicare claims. Contracts between CMS and the
Medicare contractors define the functions to be performed and provide for the reimbursement of
allowable administrative costs incurred in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

For FYs 2005 through 2007, CMS contracted with HealthNow New York, Inc. (HealthNow) to
serve as the Medicare Part B carrier for 45 counties in upstate New York. HealthNow reported
Medicare Part B administrative costs totaling $57,057,532 in its cost proposals for FYs 2005
through 2007.

OBJECTIVES

Our objectives were to determine whether (1) the HealthNow cost proposals for FYs 2005
through 2007 presented fairly the costs of program administration and (2) the costs were
reasonable, allowable and allocable in accordance with Federal Acquisition Regulations (FAR)
and the Medicare contract provisions.

SUMMARY OF FINDINGS

HealthNow’s reported expenditures in its FYs 2005 through 2007 cost proposals substantially
complied with the FAR and the Medicare contract provisions. However, HealthNow overstated
its FYs 2005 through 2007 cost proposals by $49,393. Specifically, HealthNow reported
unallowable costs totaling $50,979 – unsupported subcontract and outside professional services
costs ($44,209), overstated travel costs ($4,370), and overstated depreciation costs ($2,400).
HealthNow also understated its return on investment by $1,586.

RECOMMENDATION

We recommend that HealthNow decrease its cost proposals by $49,393 ($23,513 for FY 2005;
$11,601 for FY 2006; and $14,279 for FY 2007) to reflect the unallowable administrative costs.

HEALTHNOW’S COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HealthNow generally agreed with our recommendation.
HealthNow indicated that it will adjust its cost proposals upon direction from CMS for the
overstated travel and depreciation costs and the understated return on investment. However,



                                               i
HealthNow indicated that it obtained additional documentation to support the subcontract and
outside professional services costs and will provide the documentation to CMS. HealthNow’s
comments appear in their entirety as Appendix D.

After reviewing HealthNow’s comments, we continue to recommend that HealthNow decrease
its cost proposals by $49,393 to reflect the unallowable administrative costs pending submission
of adequate supporting documentation to CMS for subcontract and outside professional services
costs.




                                               ii
                                                TABLE OF CONTENTS
                                                                                                                                 Page

INTRODUCTION ..................................................................................................................1 
 


          BACKGROUND ..........................................................................................................1 
 


          OBJECTIVES, SCOPE, AND METHODOLOGY......................................................1 
 

               Objectives .........................................................................................................1 
 

               Scope.................................................................................................................1 
 

               Methodology .....................................................................................................2 
 


FINDINGS AND RECOMMENDATION............................................................................3 
 


          UNALLOWABLE COSTS ..........................................................................................3 
 

              Unsupported Subcontract and Outside Professional Services Costs ................3 
 

              Overstated Travel Costs....................................................................................3 
 

              Overstated Depreciation Costs..........................................................................4 
 


          UNDERSTATED RETURN ON INVESTMENT .......................................................4 
 


          RECOMMENDATION ................................................................................................5 
 


APPENDIXES

          A – FINAL ADMINISTRATIVE COST PROPOSALS WITH OFFICE OF INSPECTOR
              GENERAL RECOMMENDED ADJUSTMENTS

          B – OFFICE OF INSPECTOR GENERAL RECOMMENDED COST ADJUSTMENTS

          C – COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO 
 

              BUDGET AUTHORIZATION 
 


          D – HEALTHNOW’S COMMENTS




                                                                    iii
                                                INTRODUCTION 
 


BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part B Carriers that process and pay Medicare claims. Contracts between CMS and the
Medicare contractors define the functions to be performed and provide for the reimbursement of
allowable administrative costs incurred in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

During the audit period (FYs 2005 through 2007), CMS contracted with HealthNow New York,
Inc. (HealthNow) to serve as the Medicare Part B carrier for 45 counties in upstate New York. 1
HealthNow reported Medicare Part B administrative costs totaling $57,057,532 in its cost
proposals for FYs 2005 through 2007.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the HealthNow cost proposals for FYs 2005
through 2007 presented fairly the costs of program administration and (2) the costs were
reasonable, allowable and allocable in accordance with Federal Acquisition Regulations (FAR)
and the Medicare contract provisions.

Scope

Our review covered the period October 1, 2004, through September 30, 2007 (FYs 2005 through
2007). For this period, HealthNow reported Medicare Part B administrative costs totaling
$57,057,532. These costs included pension costs of $935,642 that we excluded from this review
because they will be the subject of a separate audit. HealthNow did not report any forward-
funding costs in its cost proposals for this period. We reviewed only those internal controls
necessary to achieve our objectives.

We conducted fieldwork at HealthNow’s offices in Buffalo and Binghamton, New York from
April through July 2008.




1
    Upstate Medicare Division, a division of HealthNow, processed the Part B claims.


                                                           1
 

Methodology

To accomplish the objectives, we:

       •	       reviewed applicable Medicare laws, regulations, and guidelines and HealthNow’s
                contract with CMS;

       •	       reviewed HealthNow’s independent auditor’s reports and letters related to internal
                controls for HealthNow for FYs 2005 through 2007;

       •	       reviewed HealthNow’s external audit reports, including a prior OIG report, 2 for
                FYs 2000 through 2004;

       •	       reconciled expenses on the cost proposals and cost classification reports to
                HealthNow’s accounting records;

       •	       tested costs for reasonableness, allowability and allocability;

       •	       selected and reviewed a judgmental sample of journal entries, invoices, expense
                vouchers and reports, contracts and agreements, and additional supporting
                documentation;

       •	       interviewed HealthNow officials regarding the cost accumulation processes for
                cost proposals and cost allocation systems;

       •	       reviewed payroll journals, corporate bonus plans, and personnel records; and

       •	       selected a judgmental sample of 30 individual employees and verified that the
                amount paid to each employee was in accordance with the employee’s pay rate,
                the employee’s salary was charged to the correct cost center, and the number of
                hours paid to the employee agreed with the employee’s time sheets.

       In addition, for the top five executive salaries allocated to Medicare, we:

       •	       reviewed total compensation payout data and supporting documentation for FYs
                2005 through 2007;

       •	       compared executive compensation costs to benchmark amounts published in the
                Federal Register for FYs 2005 through 2007; and

       •	       applied the Medicare allocation percentage to each executive’s total
                compensation, up to the benchmark amount, to determine the allowable executive
                compensation amount.

2
“Review of Medicare Part B Administrative Costs Claimed by HealthNow New York, Inc. for the Period
October 1, 1999, Through September 30, 2002” (Report Number: A-02-03-01012).


                                                     2
 

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                            FINDINGS AND RECOMMENDATION

HealthNow’s reported expenditures in its FYs 2005 through 2007 cost proposals substantially
complied with the FAR and the Medicare contract provisions. However, HealthNow overstated
its FYs 2005 through 2007 cost proposals by $49,393. Specifically, HealthNow reported
unallowable costs totaling $50,979 – unsupported subcontract and outside professional services
costs ($44,209), overstated travel costs ($4,370), and overstated depreciation costs ($2,400).
HealthNow also understated its return on investment by $1,586.

UNALLOWABLE COSTS

HealthNow reported unallowable costs, totaling $50,979, related to subcontract and outside
professional services, travel, and depreciation and use charges.

Unsupported Subcontract and Outside Professional Services Costs

Pursuant to FAR section 31.201-2(d), HealthNow is responsible for “. . . maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles . . . .” Pursuant
to chapter 2, section 190.3 of the Medicare Financial Management Manual, HealthNow must
maintain records “. . . in such detail as will properly reflect all net costs, direct and indirect . . .
for which reimbursement is claimed under the provisions of the agreement.”

HealthNow did not maintain adequate records to support expenditures totaling $44,209.
Therefore, these costs are unallowable for Federal reimbursement. The unsupported
expenditures were included in the following cost categories:

    •	 $38,850 for subcontract costs that included $20,261 in FY 2005, $7,065 in FY 2006, and
       $11,524 in FY 2007; and

    •	 $5,359 for outside professional services costs that included $270 in FY 2005, $3,541 in
       FY 2006, and $1,548 in FY 2007.

Overstated Travel Costs

FAR 31.205-46 states that “. . . costs incurred for lodging, meals, and incidental expenses (as
defined in the regulations cited in (a)(2)(i) through (iii) of this paragraph) shall be considered to
be reasonable and allowable only to the extent that they do not exceed on a daily basis the
maximum per diem rates in effect at the time of travel . . . .” The Federal Travel Regulation




                                                   3
 

(41 CFR part 300-304) implements statutory requirements and Executive branch policies for
travel by Federal civilian employees and others authorized to travel at government expense.

HealthNow reported unallowable travel costs totaling $4,370 in its FYs 2005 through 2007 cost
proposals ($3,768 in FY 2005; $195 in FY 2006; and $407 in FY 2007). This amount represents
expenses incurred by subcontractors and outside professionals that were in excess of Federal
Travel Regulation per diem rates. These costs are not allocable to the Medicare contract and are,
therefore unallowable.

Overstated Depreciation Costs

Pursuant to FAR section 31.201-2(d), HealthNow is responsible for “. . . maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles . . . .” In
addition, 70 Fed. Reg. 51916 (Aug. 31, 2005) states that “the computation of depreciation or use
allowances shall be based on the acquisition cost of the assets involved.”

HealthNow purchased computer equipment and recorded these costs at a higher amount than the
acquisition cost due to a clerical error. HealthNow calculated a depreciation expense on this
inflated cost and claimed the expense in its cost proposals. As a result, HealthNow included
unallowable depreciation costs totaling $2,400 in its cost proposals – $800 in each cost proposal
from FY 2005 through FY 2007.

UNDERSTATED RETURN ON INVESTMENT

HealthNow understated its return on investment by $1,586 for its FY 2005 cost proposal.

Section X.A of Appendix B of the Medicare contract states:

         To the extent that land and tangible depreciable assets, such as buildings, equipment
         and leasehold improvements, owned by the contractor are used for Medicare
         purposes, the cost of investment will be determined by multiplying the average
         undepreciated balance of such assets for the contract period by the actual rate of
         return of the contractor’s investment portfolio for the contract period, or a lower
         rate if the contractor so chooses.

HealthNow utilized a higher rate of return – the Prompt Payment Act interest rate – to calculate
the return on investment amount reported on its FY 2005 cost proposal – not its investment
portfolio actual rate of return for the contract period, as required under the Medicare contract. 3
In addition, HealthNow made a clerical error in computing the return on investment. HealthNow
used the estimated return on investment as of August 2005 instead of September 2005 to allocate
the return on investment to Medicare. These errors resulted in an understatement of return on


3
 The Prompt Payment Act requires Executive departments and agencies to pay commercial obligations within
certain time periods and to pay interest penalties when payments are late. These interest rates are published by the
U.S. Department of the Treasury.


                                                          4
 

investment claimed for that year. We recalculated the cost of investment using HealthNow’s
investment portfolio rate and determined that an adjustment of ($1,586) was necessary.

RECOMMENDATION

We recommend that HealthNow decrease its cost proposals by $49,393 ($23,513 for FY 2005;
$11,601 for FY 2006; and $14,279 for FY 2007) to reflect the unallowable Medicare Part B
costs.

HEALTHNOW’S COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HealthNow generally agreed with our recommendation.
HealthNow indicated that it will adjust its cost proposals upon direction from CMS for the
overstated travel and depreciation costs and the understated return on investment. However,
HealthNow indicated that it obtained additional documentation to support the subcontract and
outside professional services costs and will provide the documentation to CMS. HealthNow’s
comments appear in their entirety as Appendix D.

After reviewing HealthNow’s comments, we continue to recommend that HealthNow decrease
its cost proposals by $49,393 to reflect the unallowable administrative costs pending submission
of adequate supporting documentation to CMS for subcontract and outside professional services
costs.




                                               5
 

APPENDIXES 
 

                                                                             APPENDIX A 
 



       FINAL ADMINISTRATIVE COST PROPOSALS WITH OFFICE OF INSPECTOR                     

                      GENERAL RECOMMENDED ADJUSTMENTS

                                Fiscal Year    Fiscal Year    Fiscal Year
         Cost Category             2005           2006           2007               Total

Salaries/Wages                   $9,369,125      $9,798,938     $8,821,965       $27,990,028
Fringe benefits                    4,471,201      4,598,259      3,836,704        12,906,164
Facilities or Occupancy            1,381,391      1,722,889      1,990,545          5,094,825
EDP Equipment                        492,482        892,831      1,084,677          2,469,990
Subcontracts                       3,280,422      2,544,998      2,541,179          8,366,599
Outside Professional Services        128,915        431,021        168,800            728,736
Telephone and Telegraph              220,107         66,500         74,937            361,544
Postage and Express                2,050,897      1,809,768      1,127,342          4,988,007
Furniture and Equipment              507,166        641,686        671,396          1,820,248
Materials and Supplies               196,908        196,659        124,703            518,270
Travel                               111,934        230,412         94,471            436,817
Return on Investment                  25,407         19,245         18,851             63,503
Miscellaneous                        366,824        508,312        285,456          1,160,592
Other                                      -          3,538          2,020              5,558
  Subtotal                        22,602,779     23,465,056     20,843,046        66,910,881
Other Adjustments (Credits)      (3,398,508)    (3,425,397)    (3,029,444)        (9,853,349)
 Total Costs                    $19,204,271    $20,039,659    $17,813,602        $57,057,532

Forward Funding                            -              -              -                    -

Total Costs Claimed             $19,204,271    $20,039,659    $17,813,602        $57,057,532

OIG Recommended
Adjustments*                       (23,513)       (11,601)       (14,279)            (49,393)


Total Adjusted Costs            $19,180,758    $20,028,058    $17,799,323        $57,008,139


*See Appendix B
                                                                            APPENDIX B
 



          OFFICE OF INSPECTOR GENERAL RECOMMENDED COST ADJUSTMENTS 
 


                                        Fiscal    Fiscal       Fiscal
                                        Year      Year         Year            Total Part B
           Finding Category             2005      2006         2007            Adjustments

Subcontracts and Outside Professional
  Services Costs
   Subcontracts                         $20,261    $7,065      $11,524             $38,850
   Outside Professional Services            270     3,541        1,548               5,359
     Sub-Total                           20,531    10,606       13,072              44,209

Travel Costs
   Subcontracts                           3,198      195          407                 3,800
   Outside Professional Services            570                                         570
     Sub-Total                            3,768      195          407                 4,370

Furniture and Equipment Costs
   Depreciation and Use Charges            800       800          800                 2,400

Return on Investment                    (1,586)            -            -           (1,586)

                 OIG Recommended
                      Adjustments       $23,513   $11,601 
    $14,279             $49,393
                                                                          APPENDIX C
                                                                            Page 1 of 3


       COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO 

                     BUDGET AUTHORIZATION
                       FISCAL YEAR 2005
                                                      Variance
                          Budget     Administrative   Favorable
        Operation      Authorization Costs Claimed  (Unfavorable)

Program Management
Bills/Claims Payment           $12,466,700       $12,939,960       ($473,260)
Appeals/Reviews                  2,068,300         2,069,127            (827)
Beneficiary Inquiries            1,436,500         1,283,305          153,195
PM Provider
Communications                     133,000            91,517             41,483
Participating Physician             50,900            42,022              8,878
Productivity Investments            38,500            36,287              2,213
Provider/Supplier
Enrollment                        1,059,800        1,086,953           (27,153)
Provider Inquiries                1,711,700        1,564,511           147,189
Credits                         (3,200,000)      (3,398,508)           198,508
  Subtotal                      15,765,400       15,715,174              50,226


Medicare Integrity
Program
Medical Review                   1,470,100         1,345,880            124,220
MSP - Prepayment                   176,100           171,942              4,158
Benefit Integrity                   55,000            47,474              7,526
Local PET                          360,000           278,654             81,346
Provider Communications            473,000           444,795             28,205
MIP Productivity Investment              -                 -                  -
MSP – Post Payment                 881,300           864,054             17,246
  Subtotal                       3,415,500         3,152,799            262,701

MMA Regulatory Reform              423,400          336,298              87,102

  Total                        $19,604,300       $19,204,271           $400,029


Note: All amounts were taken from Final Administrative Cost Proposal
(Supplement No. 9) and Notice of Budget Approval (Supplement No. 11)
                                                                          APPENDIX C
                                                                            Page 2 of 3


         COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO 

                       BUDGET AUTHORIZATION
                         FISCAL YEAR 2006
                                                        Variance
                            Budget     Administrative   Favorable
          Operation      Authorization Costs Claimed  (Unfavorable)

Program Management
Bills/Claims Payment           $13,201,200       $13,630,784       ($429,584)
Appeals/Reviews                  1,968,400         1,757,120          211,280
Beneficiary Inquiries            1,326,600         1,338,775         (12,175)
PM Provider
Communications                     276,500           326,565           (50,065)
Participating Physician             50,900            44,966              5,934
Productivity Investments            63,400                 -             63,400
Provider/Supplier
Enrollment                        1,116,800         1,126,922          (10,122)
Provider Inquiries                1,851,300         1,933,105          (81,805)
Credits                         (3,046,800)       (3,425,397)          378,597
  Subtotal                      16,808,300        16,732,840             75,460


Medicare Integrity
Medical Review                   1,415,000          1,425,751          (10,751)
MSP - Prepayment                   199,500            200,626           (1,126)
Benefit Integrity                   40,000             41,049           (1,049)
Local PET                          295,000            291,150             3,850
Provider Communications            551,900            571,880          (19,980)
MIP Productivity Investment         18,000             13,565             4,435
MSP – Post Payment                 856,900            762,798            94,102
MIP – Prov. Outreach and
Educ.                                    -                  -                 -
  Subtotal                       3,376,300          3,306,819            69,481

Totals                         $20,184,600       $20,039,659           $144,941


Note: All amounts were taken from Final Administrative Cost Proposal
(Supplement No. 4) and Notice of Budget Approval (Supplement No. 21)
                                                                          APPENDIX C
                                                                            Page 3 of 3


         COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO
                        BUDGET AUTHORIZATION
                          FISCAL YEAR 2007

                                                Administrative      Variance
                                  Budget           Costs            Favorable
          Operation            Authorization      Claimed         (Unfavorable)

Program Management
Bills/Claims Payment             $12,654,300       $12,244,662         $ 409,638
Appeals/Reviews                     1,899,900         1,880,764             19,136
Beneficiary Inquiries               1,073,100           887,355           185,745
PM Provider Communications                  -                 -                  -
Participating Physician                50,900            31,283            19,617
Productivity Investments                    -                 -                  -
Provider/Supplier Enrollment        1,438,000         1,461,164          (23,164)
Provider Inquiries                  1,684,900         1,692,533            (7,633)
Provider Outreach and Educ.           221,400           202,093             19,307
Credits                           (3,253,900)       (3,029,444)        (224,456)
  Subtotal                       $15,768,600       $15,370,410          $398,190

Medicare Integrity
Medical Review                     1,520,000         1,462,072            57,928
MSP - Prepayment                     220,600           209,568            11,032
Benefit Integrity                     52,000            37,399            14,601
Local Provider Education and
Training                                   -                 -                 -
Provider Communications                    -                 -                 -
MIP Prod Investment                        -                 -                 -
MSP – Post Payment                   250,900           236,107            14,793
MIP – Prov. Outreach and
Educ.                                590,000           498,046            91,954
  Subtotal                         2,633,500         2,443,192           190,308

Totals                           $18,402,100       $17,813,602          $588,498


Note: All amounts were taken from Final Administrative Cost Proposal
(Supplement No. 2) and Notice of Budget Approval (Supplement No. 7)
                                                                                                               APPENDIX D 
 





Healt~
HeaIt~
  HealthNow New York Inc.
  HeahhNow                                                                257 W. Genesee
                                                                          257 W.              Buffalo, l'kw
                                                                                 Genesee St., Buffalo, New York
                                                                                                            York 14202
                                                                                                            Yom

March 6, 2009

Mr. James P. Edert
Mr.
                                      Audit Services
Regional Inspector General, Office of Audit Services
Region II
Jacob K. Javits Federal Building
   Federal Plaza
26 Federal
New York,
     York., NY 10278

                                  A-OZ-Q8-QI003
                                  A·OZ-D8-D1003
Re: Common Identification Number: A-Ol.CJ8-OIOO3

Dear Mr. Edert:

This letter is in response to the U.S. Department of Health & Human Services, Office of Inspector General, Office of
Audit Services' draft report entitled "AUDIT OF HEALTIlNOW HEALTHNOW NEW YORK'S MEDICARE PAT B
ADMlNlSTRATIVE COST PROPOSALS FOR FISCAL YEARS 2005 THROUGH
ADMINISTRATIVE                                                        THROUGH 2007,"
                                                                                   2007." HealthNow New York Inc.
(HealthNow) has reviewed the draft report. Following are comments regarding the specific findings.

UnaDowable eMt;
Un,Uowlble
Un.Dowable Cost;
           COlti

UnsuPported
Unsupported Subcontract & Outside Professional Services Cost:
                                                        Cost

                   of the draft audit report, HealthNow has
Since the issuance oCthe                                                                      to support the expenditures
                                                        bas obtained additional documentation 10
claimed on the FACPs for FY 2005 - FY 2007. This documentation will be provided to eMS CMS during negotiations.
                                                                                                     negotiations,

Overstated Travel COS\S:
Oymtated          Costs:

HealthNow agrees to this finding. HealthNow is willing to make manual entries and re-submit the FY 2005
                                                                                                   ZOOS thru FY 2007
                                                           cost in the settlement agreement
FACPs upon direction from CMS or address the unallowable COSI                     agreement.

Oymtated Depreciation Costs;
Overstated            Costs:

HealthNow agrees !hat
                   that the FY 2005 thru FY 2007 FACPs were overstated by $2.400
                                                                          $2,400 - $800 for each FY due to a clerical
etTOr.
error. HealthNow is willing to make manual entries and re-submit the FACP upon direction from CMS or address the
unallowable cost in the settlement agreement.
                                   agreement

Understated Return
            Relum on [pveltmentj
Undmtlted Return     Igvntmegl;
                     Investment;

HealthNowagrees
HealthNow   agrees !hat
                   that the FY 2005
                               ZOOS FACP was understated by $1.586.
                                                             $1,586. HealthNow is willing to make manual entries and
              FACP
re-submit the F ACP upon direction from CMS or address the issue in the settlement agreement.

HealthNow would like 10
                     to thank the audit  team for their professionalism and recognition of the ongoing operation during
                                  audi.t team
the audit.

      have any questions please contact me at 716.887.6922.



 1b:iUfne'M   G=oo
          . Gannon
          Duector & CFO,
Executi Director
                          !lif!t
Exli'ec:>:ilriun.ti' MD=~ ~fl::::.::-
                          !rI,(]"
                          CFo~=e
                                      u/'J<..--
                                      u/'J<--
                                Icare Operation
MedUS Services, LLC
MedUS
Heal.thNow
HealthNow New York Inc.


cc: Carmen L.
CC:         L Snell,
               Snell. Esq.
    Catherine M. Campbell,
                 Campbell. SVP Government Programs
